Washington, D.C. 20530

June 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: John D. Leontaritis v. United States of America,
S.Ct. No. 20-1614
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on May 17, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on July 7, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 6, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1614
LEONTARITIS, JOHN D.
USA

CHARLES RANDALL FLORES
BECK REDDEN LLP
1221 MCKINNEY ST.
SUITE 4500
HOUSTON, TX 77010
713-951-6268
CFLORES@BECKREDDEN.COM
FEDERICO REYNAL
FERTITTA REYNAL, LLP
815 WALKER STREET
SUITE 1553
HOUSTON, TX 77002
713-228-5900
AREYNAL@FRLAW.US
713-820-6981(Fax)

